No .

3111 tbe ~ttprente (!Court of tlJe Wntteb ~tates
DEUTSCHE BANK TRUST COMPANY AMERICAS, ET AL.,

Petitioners,
V.

ROBERT R. MCCORMICK FOU NDATION, ET AL.,

Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33. l(h) , I, Joshua S. Bolian, a member of
the Bar of this Court, hereby certify that the Petition for a Writ of Certiorari in the
above-captioned case contains 8,998 words, excluding the parts of the Petition that
are exempted by Supreme Court Rule 33.l(d).

I declare under penalty of perjury that the foregoing is true and correct.

Joshua S. Bolian
Dated: July 6, 2020

